HHS/OIG-Audit--"Review of Mississippi's Retroactive Claim for Foster Care Administrative and Training Costs and Maintenance Payments, (A-04-98-00126)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Mississippi's Retroactive Claim for Foster Care Administrative and Training Costs and Maintenance Payments," (A-04-98-00126)
August 10, 2000
Complete
Text of Report is available in PDF format (3.71 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Mississippi retroactively claimed costs under Title IV-E for foster care administrative
and maintenance payments that did not Federal requirements for reimbursement. Approximately $9.4 million in administrative
costs included costs that were unallowable, not documented, or claimed at an incorrect Federal sharing rate. Also, maintenance
payments of about $3.1 million were unallowable for various reasons or were not documented. Finally, $2.5 million represents
consultant fees unallowable because they were based on a contingency fee arrangement that did not meet Office of Management
and Budget reimbursement requirements. We recommended financial adjustments. We also recommended procedural improvements
to help the State preclude such problems in the future. The State generally disagreed with our recommendations for financial
adjustments, but concurred with many of our recommendations for procedural improvements.